HHS/OIG-Audit--"Review of Medicare Payments for Beneficiaries with Institutional Status - Providence Good Health Plan, Portland, Oregon, A-05-97-00024"
Department of Health and Human Services
Office of Inspector General -- AUDIT
Review of Medicare Payments for Beneficiaries with Institutional Status -
Providence Good Health Plan, Portland, Oregon, (A-05-97-00024)
March 2, 1998
Complete Text of Report is available in PDF format
(34 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our audit entitled, "Review of Medicare
Payments for Beneficiaries with Institutional Status." Our objective was
to determine if payments to Providence Good Health Plan under Medicare risk
contract H9047 were appropriate for beneficiaries reported as institutionalized.
We found that Medicare payments to Providence for beneficiaries reported as
institutionalized were generally correct. Our results are based on a statistical
sample of 100 Medicare beneficiaries reported as institutionalized, with the
exception of minor errors. The positive results are attributed to Providence's
procedures for verifying the institutional status of its beneficiaries.